Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




EFFECTIVENESS OF ACCESS AND
VISITATION GRANT PROGRAMS




                    JANET REHNQUIST
                    INSPECTOR GENERAL

                       October 2002
                      OEI-05-02-00300
                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as
the health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspections reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                                      Executive Summary
Objective:

To determine the extent to which the Access and Visitation Grants increased access rights, visitation,

and child support payment compliance for parents in five states.


Background:
Our study examined program outcomes intended by law, and outcomes of interest to the Office of
Child Support Enforcement (OCSE) and the Department of Health and Human Services (the
Department). The goal of the Access and Visitation Grant, as stated in law, is “. . . to support and
facilitate noncustodial parents’ access to and visitation of their children.” Our study assessed whether
mediation programs, one of the most popular services offered through the Access and Visitation grant
program, facilitated and increased access rights for IV-D participants. We expected that increasing
access rights for the noncustodial parent would lead to increased visitation between noncustodial
parents and their children. Increased visitation may have other secondary effects on parents and
children, including improved child support payment compliance, improved child behavior, household
formation, and others.

For the purposes of this study, we define “access rights” as a noncustodial parent’s right to visit their
child as noted in formal visitation arrangements. Access rights can be documented in written mediation
agreements, divorce decrees, or court orders for visitation, and often include a specific schedule for
regular visits as well as for holiday and vacation visits.

Our findings come from 254 cases in five states. Due to significant differences in Geogia’s program, we
analyzed Georgia’s data separately. Thus, we have two sets of analyses. We first analyzed information
from 190 cases in 4 states (Nevada, Connecticut, Oklahoma, and Illinois). This data has been
weighted according to state stratification and can be projected to program participants in the four
states. Our second analysis reviews the 64 cases in Georgia and can only be projected to that state.

Findings for Four States:
•     Facilitated & Increased Access:
      •	      Seventy-six percent of cases examined in our case file review resulted in a mediated
              agreement.
      •	      In 86% of these cases, access rights were increased for the noncustodial parent through
              mutually agreed upon visitation plans.
      •	      For all of the cases in our sample, regardless of whether or not an agreement was
              reached, 66% gained increased access rights through mediation.
•     Increased Visitation:
      •	      Of the 100 cases in the parent phone survey, 42% who reported reaching an agreement
              also reported an overall increase in noncustodial parent visits after mediation, 33%
              reported visits stayed the same, and an additional 11% reported a decrease in
              visitations.

                                                    1

•       Improved Payment Compliance:
        •	    According to our case file review of child support files, 61% of noncustodial parents
              increased the percent of current child support they paid after mediation.
•       Other Outcomes:
        •	    Out of 254 cases reviewed in our case file review, we found 2 cases that formed a
              household after mediation. Custodial and noncustodial parents differed in their opinions
              regarding the other secondary outcomes measured.
•       Administrator Perspectives on Factors of Success:
        •	    According to Access and Visitation state administrators and mediation program
              managers, a mediation program’s success is related to its relationship with referral
              sources (i.e. courts or child support offices), its convenience to clients, and its capacity
              to conduct outreach and follow-up. Regarding factors contributing to a mediation
              session’s success, administrators and managers noted the quality of the mediation
              process, as well as the nature of the clients served.

Findings for Georgia:
•	    Unlike the four other states, Georgia’s two mediation programs focus primarily on increasing
      immediate visitation, as opposed to access rights. Our case file review found that at least 60%
      of cases that successfully completed program goals saw an increase in visits. Fifty-five percent
      of all program participants increased the percentage of current child support paid.

Cause:
•	   Our data show a potential relationship between participation in mediation programs funded by
     the Access and Visitation grant and increased access rights, increased visits, and improved
     child support payment compliance. Because these effects are centered around the date of
     mediation, it is plausible that participating in mediation is a cause for these increases, although
     other causes are also likely to impact access rights, visits, and payment.

Effect:
•	     Mediation programs in our 4 states have successfully increased access rights for noncustodial
       parents, which may plausibly account for an increase in visits for some noncustodial parents.
•	     Increasing visitation means that more children would benefit from a relationship with their
       noncustodial parent that research has shown to be emotionally, psychologically, and financially
       beneficial.
•	     Participation in mediation programs is also plausibly associated with improved child support
       payment compliance. Increased compliance means that IV-D families benefit from added
       income. We estimate that the average net increase in monthly payments after mediation was
       $56 per case. This increase would have resulted in $230,000 in additional child support
       payments for the universe of 595 IV-D cases served by the program in 4 states for fiscal year
       (FY) 2001. We estimate that the average net increase in monthly

                                                    2

payments after mediation was $26 per case in Georgia. Overall, this meant a net increase of
$66,000 in FY 2001 for the universe of 256 IV-D cases served by the program in Georgia.




                                          3

                               Introduction and Methodology


 Objective: To determine the extent to which the Access and Visitation Grants increased
 access rights, visitation, and child support payment for parents in five states.



Background
Our study examined program outcomes intended by law, and outcomes of interest to the Office of
Child Support Enforcement (OCSE) and the Department of Health and Human Services (the
Department). The goal of the Access and Visitation Grant, as stated in law, is “. . . to support and
facilitate noncustodial parents’ access to and visitation of their children.” Our study assessed whether
mediation programs facilitated and increased access rights for program participants. We expected that
increasing access rights for the noncustodial parent would lead to increased visitation between
noncustodial parents and their children. Increased visitation may have other secondary effects on
parents and children, including improving child support payment compliance, improving child behavior,
household formation, and others. While not explicitly intended by law, these outcomes are of
importance to OCSE and the Department, and as such, we have made efforts to measure them.

For the purposes of this study, we define “access rights” as a noncustodial parent’s right to visit their
child as noted in formal visitation arrangements. Access rights can be documented in written mediation
agreements, divorce decrees, or court orders for visitation, and often include a specific schedule for
regular visits as well as for holiday and vacation visits.

Sample
We examined 9 community and court-based programs that offered mediation to IV-D clients in 5 states
(Illinois, Connecticut, Nevada, Oklahoma, and Georgia). To select our sample, we requested that
programs provide a list of all cases completing mediation in calendar year 2001. We selected a
random sample of cases independently within each state, so the data can be treated as a stratified
random sample. Once onsite at Georgia’s programs, we realized that their service goals were
significantly different from our other programs’ mediation services. As such, we have analyzed
Georgia’s data separately from the other four states. Our data come from 190 cases in four states and
64 cases in Georgia. All aggregate data reported is weighted according to state stratification and can
be projected to program participants in the four states. Confidence intervals for estimates can be found
in Appendix D. See Appendix C for a full methodology.

Methodology
Access and Visitation programs vary widely from state to state and program to program in the services
they offer and the populations they target. In order to offer a cohesive, substantial review, it was
necessary to focus on specific aspects of this grants program. We elected to focus this study on
programs that offer mediation services to the IV-D population. Of all the services offered through this
grant program, we selected mediation, because it is an access-related service.

                                                    4

  Establishing access rights is an essential first step for noncustodial parents attempting to establish regular
  visitation with their child. Further, mediation was one of the most popular activities funded by the
  grants, according to state data on service utilization. Finally, all but one of the states targeting IV-D
  clients with their grant money offered mediation services, apparently believing it to be an important
  service to offer to this population.

  To collect our data regarding these mediation programs, we reviewed 3 types of case files for each
  sampled case: mediation program files, court files, and child support payment records. Specifically, we
  examined access-related documents, such as mediated agreements, divorce decrees, stand-alone
  visitation orders, and child support orders. For our payment review, we collected information on
  order, payment, and earnings history for the period 18 months before mediation to 18 months after
  mediation.

  In addition to our case file reviews, we conducted a phone survey of custodial and noncustodial parents
  and conducted interviews with Access and Visitation state liaisons, mediation program administrators,
  and program staff. Our phone survey response rate was higher than expected for the 4 states. We
  received responses for 125 parents (out of 380) for a parent response rate of 33%, and surveyed at
  least one parent for 100 of our 190 cases for a case response rate of 53%. In 25 cases both parents
  responded. In Georgia, we received responses for 24 parents (out of 128) for a parent response rate
  of 19%, and surveyed at least one parent for 18 of our 64 cases for a case response rate of 28%. In 6
  cases, both parents responded. The table below includes our data sources and sample sizes for each
  section.

                               Table 1. Sample Sizes for each Data Source Associated with Findings
                                                                  Primary Data Sources
                              Mediation                Court           Child Support             Parent           Administrator
Findings Sections           Program Case             Case File           Payment                  Phone            Interviews
                             File Review              Review             Review                  Survey

Access, page 6                   190 cases            190 cases

Visits, page 8                                                                                   100 cases,
                                                                                                125 parents*

Payment, page 11                                                           111 cases**

Other Outcomes,                                                                                  100 cases,            10 interviews
page 13                                                                                         125 parents*

Perspectives on                                                                                  100 cases,            10 interviews
                                                                                                125 parents*
Success, page 15

Georgia, page 17                  64 cases             64 cases            53 cases**             18 cases,            3 interviews
                                                                                                 24 parents*
  *Phone survey respondents represent at least one parent from 100 cases in our 4 states and 18 cases in Georgia. In
  the 4 states, there were 25 cases where both parents responded, and in Georgia, both parents responded in 6 cases.
  **Payment data come from cases that had some child support order both prior to and after mediation.


                                                                  5
Organization of this Document
The following document outlines our findings and analysis of the effectiveness of the Access and
Visitation grant program. The first three sections address our major issues: access, visitation, and
payment. The fourth section consists of other secondary outcomes that we found, including those
outcomes of interest to OCSE: improved child behavior and household formation. We bring in Access
and Visitation state administrators and mediation program managers perspectives in the fifth section in
order to contextualize the quantitative data presented in the other sections. Finally, we present data
specific to Georgia from our case file reviews, parent surveys, and program administrator interviews on
the above five topics: access, visitation, payment, other outcomes, and program perspectives.




                                                   6

                            Facilitated and Increased Access

Seventy-six percent of cases examined in our case file review resulted in a mediated agreement. In
86% of these cases, access rights were increased for the noncustodial parent through mutually agreed
upon visitation plans. For all of the cases in our sample, regardless of whether or not an agreement was
reached, 66% gained increased access rights through mediation.


We reviewed 190 case files in order to evaluate the impact of mediation on noncustodial parents’
access rights. Specifically, we analyzed: 1) the degree to which mediation resulted in a written
agreement between the two parents; and 2) the degree to which mediation agreements resulted in
increased access rights for the noncustodial parents.

Mediation Facilitates Access Rights
•	    In 76% of cases, mediation facilitated noncustodial parents’ access rights through the creation
      of mutually agreed upon visitation plans.
•	    The percentage of mediated agreements varied across states, ranging from 72% in Illinois to
      85% in Connecticut.
•     Less than 5% of our cases yielded a change in custody during or as a result of mediation.

Noncustodial Parents Without Prior Access Gain Rights
•    In 69% of the cases, noncustodial parents had no access rights prior to mediation.
•	   Seventy-seven percent of these parents without prior access rights, gained access in the form of
     a mediated visitation agreement.
•	   On average, access rights were increased from zero to19 hours a week for standard visitation
     (i.e., visits that are scheduled on a weekly or bi-monthly basis), and from zero to 13 days for
     vacations and holidays, for parents with no access prior to mediation.
•	   Eighty-one percent of mediated agreements were formalized by the court, for cases without
     prior access rights.
•	   Twelve percent of the mediated agreements for cases without prior access stipulated that the
     noncustodial parents’ visitation was to occur under supervision.

Access Rights Increase for Parents with Prior Access
•	   Through our case file review, we found that 31% of our cases had prior access rights
     documented in formalized agreements. Of these cases, 54% had prior access rights formalized
     in stand-alone court documents, 20% in child support documents, 8% in divorce orders, 6% in
     paternity orders and for 13% of the cases it was unknown or unclear in which document prior
     access rights had been formalized.
•	   Seventy-four percent of the noncustodial parents with access rights prior to mediation
     successfully completed the mediation program by reaching a visitation agreement.
•	   Fifty-four percent of the cases that reached a mediated agreement also gained an increase in
     access rights for the noncustodial parent. For all of the cases with prior access, regardless of
     whether or not an agreement was reached, 40% gained increased access rights.


                                                   7

•	          In contrast to parents without prior access rights, those with prior access increased their
            standard access rights only slightly, from 24 hours a week to 26 hours a week, on average.
            Their holiday and vacation days, however, increased from 3 days to 20 days.
•	          Eighty-two percent of the mediated agreements were formalized by the court for cases with
            prior access rights.

                                       Facilitated and Increased Access 

                                                   Broken Out 

                                  by Noncustodial Parents’ Prior Access Rights 



                                                       Noncustodial parents      Noncustodial parents
                                                           without prior              with prior
                                                           access rights             access rights
                                                          (69% of cases)            (31% of cases)
  Percentage of Cases with
  Mediated Agreements                                          77%                        74%

  Subset of Cases with Mediated
  Agreements and Increased Access                             100%                        54%
  Rights

  Net Increase in Access Rights–
  Standard Visits                                         19 hours/weekly            2 hours/weekly

  Net Increase in Access Rights–
  Holidays and Vacation Days                                  13 days                    17 days
Source: OEI case files review in four states, n=190.


Discussion
Facilitating Access Rights

Mediation programs successfully facilitated access for noncustodial parents in 76% of the cases

through mutually agreed upon visitation plans. This falls at the high end of the expected rate of

agreement, which through our pre-inspection research we found to range anywhere from 50% to 85%.


Increasing Access Rights

Mediation programs also appear to effectively increase the access rights of noncustodial parents. This

appears to be especially true for parents who had no access rights prior to mediation. For example,

mediation agreements increased access rights for 100% of parents with no prior access, compared to

increasing access for only 54% of the parents with prior access. Furthermore, for parents without prior

access, mediation increased standard visitation rights by 19 hours a week, whereas it made only a 2-

hour-a-week difference for parents who had access prior to mediation. Where mediation did make a

significant difference for parents with prior access was in the number of holidays and vacation days they

were given. Following mediation, noncustodial parents had, on average, seventeen additional holiday

and vacation days to spend with their child.



                                                         8

It is important to note, however, that increasing access rights is not, and should not be the goal of
mediation in all cases. For example, parents may use mediation as a neutral forum in which to discuss
adjustments in the visitation schedule, rather than using it as a mechanism to increase access rights.
There may be other cases where the noncustodial parents attend mediation with the goal of increasing
access rights, but through the course of the mediation both parents agree that an increase in access
rights might be too disruptive for the child.




                                                   9

                                                          Increased Visitation


Of the 100 cases in the parent phone survey, 42% who reported reaching an agreement also reported an
overall increase in noncustodial parent visits after mediation, 33% reported visits stayed the same, and an
additional 11% reported a decrease in visitations.*



 The following data are from a phone survey of 125 parents. These parents represent at least one
 parent for 100 cases out of our 190 sampled cases in the four states. We received responses from
 both parents in only 25 of the cases.

 Unless otherwise stated, all data reported are from survey respondents who reported that they reached
 a visitation agreement at mediation. Overall, 88% of custodial parents (CPs) (n=60) and 83% of
 noncustodial parents (NCPs) (n=45) in our survey reached an agreement.

 More Parents With Agreements Report That Visits Increased Than Those With No
 Agreement
 •     Of those reaching a mediated agreement, 39% of CPs reported an increase in NCP visits and
       53% of NCPs reported an increase. In contrast, for those who did not reach an agreement at
       mediation, 10% of CPs and 13% of NCPs reported an increase in NCP visits.




 Source: OEI survey of CPs and NCPs in four states

 Note: Indeterminate Category refers either to 1) parents who answered “don’t know” regarding visitation changes or 2) cases where
 when combining responses for standard visit changes and holiday/vacation changes, it could not be determined if overall visits
 increased, decreased, or stayed the same.

 * For 15% of cases that reached an agreement, it was not possible to determine the direction of change in reported visits.


                                                                             10

More Parents Report Weekly Visits After Mediation Than Before
•     In the 6 months prior, 30% CPs and 48% of NCPs stated that visits occurred about 1 day per
      week or more. In the 6 months after reaching a mediated agreement, 47% of CPs and 61% of
      NCPs reported visits occurring at least weekly.
•     After reaching an agreement, the proportion of parents reporting that their family had no NCP
      visits decreased. Forty-two percent of CPs reported having had no NCP visits prior to
      mediation compared to 23% in the 6 months after, and the percentage of NCPs reporting no
      visitations declined as well from 28% before to 16% after mediation.

More Parents Report Scheduled Visits After Mediation
•     In the 6 months prior to the agreement, only 20% of CPs and 26% of NCPs reported that
      NCP visits were regularly scheduled. These percentages increased to 44% and 57%,
      respectively, for our survey respondents in the 6 months after reaching the mediation
      agreement.
•     On the other hand, the proportion of parents reporting that NCP visits were unscheduled/
      informal decreased. Seventeen percent of both CPs and NCPs reported unscheduled/informal
      NCP visits prior to an agreement. Afterwards, the percentages with informal visits decreased
      to 8% for CPs and 4% for NCPs.

After Mediation, More Parents Report That Visits Are Cancelled Less Often
•      Approximately 60% of both CPs and NCPs reported that they experienced missed, cancelled,
       or refused visits both before and after mediation.
•      Twenty-four percent of all CPs said that visits were cancelled less often after reaching an
       agreement, and of those CPs reporting an increase in visits, 43% reported less cancellations.
•      Fifty-one percent of NCPs said their visits were cancelled less often after reaching an
       agreement at mediation, and of those NCPs who reported that their visitations increased, 69%
       said that they had fewer cancellations.




Source: OEI survey of CPs and NCPs in four states




                                                    11

Discussion
The Effect of Increased Visitations
Programs facilitated increased access rights by mediating agreements for most of the parents in our
survey. In general, the parents who reached a mediated agreement reported experiencing increases in
the amount of visits and having fewer cancellations in the 6 months after reaching a mediated agreement
than they experienced in the 6 month prior to mediation. In addition, a greater proportion of parents
had visits that were scheduled, as opposed to informal. Scheduled visits that occur more often and are
cancelled less often may provide stability to children and their families and have a positive impact on
their lives and relationships.

Reasons Cited for Visitation Changes
Parents attributed visitation increases to mediation and other factors. Sixty percent of CPs and 92% of
NCPs stated that the mediation program played either a major or minor role in the increase.
Additionally, 8 respondents cited that their visitation increase was also due to a positive change in their
parental relationships or increased cooperation, and four parents stated that changes in court rulings
played a major role in the increase in visitations.

For those who reported a decrease in visitations, 81% of CPs (and no NCPs) cited the mediation
program as playing a major or minor role in the change in visits. Also, 8 parents stated that parental
conflict or a lack of cooperation played a role in the decrease, and 3 parents reported that they lived
too far away from each other for visits to occur. Parental conflict was also one of the primary reasons
cited by respondents for cancelling visits.

Limitations of Data
As stated earlier, 25 of our 100 cases had a response from both the CP and NCP. We found that
77% of the pairs agreed on whether or not they reached a mediated agreement, and of those pairs,
65% agreed on whether or not the NCP visits increased, decreased, or stayed the same. Although the
majority of pairs reported consistently with each other in our survey, research indicates that CPs may
under-report and NCPs may over-report visits, which may hold true for our respondents as well. Also,
although extraordinary attempts were made to reach all parents within our sample, and our ultimate
response rate was higher than expected, those who completed the survey may over-represent the more
stable CPs and NCPs, whose behaviors may be assumed to be different from other less stable CPs and
NCPs.




                                                    12

                                                         Improved Payment Compliance

According to our case file review of child support records, 61% of noncustodial parents increased the percent of
current child support they paid after mediation.



    For the main analysis of payment patterns, we used a subset of 111 cases out of the total 190 cases
    from our 4 state case file review. These 111 cases represent cases that had a child support order
    before and after mediation. This section also includes information gathered from our phone survey of
    parents, pertaining to parents’ opinions about payment patterns.

    Percent of Child Support Paid Increased
    •	   Sixty-one percent of NCPs increased the percent they paid of their current child support
         obligation after entering mediation. Twenty-seven percent decreased the percent of the current
         child support obligation they paid, and 12% did not change the percent they paid.
    •	   Prior to mediation, NCPs paid 52% of what was owed in current child support. After
         mediation, NCPs paid 70% of what was owed in current child support. Nationally, the child
         support system collected 56% of what was owed in FY 2000.
    •	   For all cases reviewed, the average monthly payment increased by $56. This is a 35% increase
         over projected post-mediation payments, based on previous payment history. This difference
         would result in an estimated $230,000 net increase in annual child support collections for the
         universe of 595 IV-D cases served by the program in the 4 states.
    •	   For the 61% of NCPs who increased the percent they paid, the average monthly child support
         payments to custodial families increased by $116. This is a 90% increase over expected post-
         mediation payments, based on previous payment history. For those NCPs who decreased the
         percent they paid, the average monthly child support payment decreased by $54.



                                                               Percent of NCPs Broken Out by Change in Payment
                                                                           Compliance After Mediation


                                                                           61%
                                                                80%
                                             Percent of NCPs




                                                                60%
                                                                                             27%
                                                                40%                                           12%

                                                                20%

                                                                 0%
                                                                       Increased        Decreased         No Change


      Source: OEI case file review in four states, n = 111 cases with orders before and after mediation




                                                                                   13
Consistency of Payments Increased
•	   Fifty-three percent of NCPs increased the percentage of months that they paid at least some
     portion of the current child support owed to the custodial family. Twenty-three percent
     decreased the percentage of months they paid as least some portion of their current child
     support and for 24% of NCPs it stayed the same.


                                                    Percent of NCPs Broken out by Change in the
                                                      Consistency of Payments After Mediation


                                                          53%
                                              70%
                                              60%
                            Percent of NCPs




                                              50%                           23%                      24%
                                              40%
                                              30%
                                              20%
                                              10%
                                               0%
                                                       Increased       Decreased               No Change




            Source: OEI case file review in four states, n = 111 cases with orders before and after mediation



Some Parents Reported Link Between Child Support Payment and Visitation
•	   Forty-two percent of CPs agreed with the statement, “If the other parent does not pay child
     support, I should not have to let them see my child.” A slightly higher percentage (45%)
     disagreed with this statement.
•	   Fifty-two percent of NCPs agreed with the statement, “If the other parent does not let me see
     my child, I should not have to pay child support.” Thirty-nine percent disagreed.


Discussion
Impact of Program Participation on Payment
It appears that participating in the sampled programs is plausibly associated with an increase in the
percent of current child support paid and the number of child support payments made. Overall, 61% of
NCPs increased the percent of child support paid after mediation. This number is even higher for
certain states. In Nevada, Connecticut, and Oklahoma, over 65% of cases show payment increases
after mediation. On the other hand, in Illinois, only 51% of cases had an increase in payment
compliance after mediation.

Impact of Increasing Access and Visitation on Payment
Payment compliance increased whether or not NCPs’ access rights increased through the program. In
62% of the cases where the NCP’s access rights increased, there was an increase in payment
compliance. Fifty-nine percent of cases without an access increase showed an increase in payment

                                                                      14

compliance. This difference is too small for us to be confident that, accounting for variation, there really
is a difference between the two groups. Further, a chi-square test shows that the association is not
statistically significant. Thus, we conclude that increasing access rights does not appear to be
associated with an increase in payment compliance.

We also analyzed the possible association between increased visits and increased payment. We found
some interesting patterns suggesting that increased visitation may be associated with an increase in
payment compliance. Out of the 111 cases in the case file review, there were 25 cases where we also
had data from NCPs regarding visitation from our phone survey. Of those NCPs who reported that
their visits increased after mediation (n=14), more NCPs increased the percent of current child support
paid (60%) than decreased or paid the same percentage of their current child support obligation (40%).
However, this association must be interpreted with caution, given that the number of cases was
extremely small and some NCP and CP responses conflicted.

Impact of Earnings on Payment
Certainly, program participation is not the only potential explanation for an increase in current child
support payment compliance. According to past OEI child support work and other research, a strong
predictor of child support payment compliance is NCP earnings. Unfortunately, the longitudinal
earnings data we were able to collect through the state child support enforcement offices were
extremely limited. Upon careful scrutiny, we considered it too unreliable to be useful. However, a
basic analysis of the earnings data 6 months prior to mediation and 6 months after mediation does show
a statistically significant relationship between an increase in payment compliance and an increase in
average monthly earnings. Of those who increased their payment compliance, 62% showed an
increase in average monthly income. We ran a logistic regression to ascertain the extent to which this
increase in earnings might explain the increase in payment compliance after mediation. Our model,
which included variables for whether or not earnings increased, whether or not mediation resulted in an
agreement and whether or not access increased, only explained a small part of why compliance
increased. Program participation, our main variable of interest, could not be included in the model since
we did not have a control group that would allow us to compare those who participated in the program
with those who did not. Given this and the rest of the data presented - that show an increase in
payment compliance temporally related to the date of mediation - it appears plausible that program
participation is a major factor influencing the increase in payment compliance after mediation.




                                                    15

                                             Other Outcomes

 Out of 254 cases reviewed in our case file review, we found 2 cases that formed a household after
 mediation. Custodial and noncustodial parents differed in their opinions regarding the other secondary




The data for our review of other outcomes were gathered from our case file review, the parent survey and
program and state administrator interviews from the four states.

Household Formation
     •	    After conducting a full case file review of all 254 cases, we found 2 cases in which couples
           began living together after mediation. Our records show that one of these couples agreed in
           mediation to “get back together for the kids.”
     •	    We found two cases among 118 cases in our telephone survey in which at least one of the
           parents reported being romantically involved with the other parent after mediation.

When asked about parent happiness/well-being and child behavior, respondents were not provided with
explicit definitions by which to frame their responses. Thus, the responses we captured reflect personal,
and in all likelihood different, definitions for these concepts. Despite this, we have aggregated the data to
provide a very general sense of program impact. Rigorous measurement of these issues was not within the
scope of this inspection.

Parent Happiness/Well-being
      •	    Thirty-eight percent of CPs and 55% of NCPs reported that their “happiness or well-
            being” improved after mediation.
      •	    Thirty-four percent of CPs and 84% of NCPs who saw an increase in visits reported that
            their “happiness/well-being” improved after mediation.

Change in Child Behavior
     •	    Thirty-three percent of CPs and 41% of NCPs reported that they felt their child’s behavior
           improved after mediation.
     •	    Thirty-two percent of CPs and 63% of NCPs who saw an increase in visits reported that
           they felt there was an improvement in their child’s behavior after mediation.


Other Outcomes Reported From Programs
      A few programs stressed that mediation agreement rates alone do not necessarily define program
      success, and they cite the following other outcomes as important to consider.
      •	      Parents learn to refocus on children’s needs. Many programs reported parents
              learning in mediation to re-frame their thinking in terms of what is best for their child, instead
              of becoming mired in their own conflicts.




                                                      16

•	   Improved communication and parenting skills. Many programs stressed that they are
     proud of their ability to encourage better communication between parents and to promote
     better parenting skills.
•	   Empowering parents. Programs maintained that their clients often feel powerless in the
     court system, and that mediation affords parents an important opportunity to feel a sense of
     empowerment and control. One administrator stressed the inherent value of the mediation
     paradigm stating that it provides, “an opportunity for each parent to be heard and feel that
     their perspective is important and valuable.”
•	   Connecting parents to needed services. One administrator stated that, “The IV-D
     facilitators are greatly skilled at recognizing problems that might not otherwise be identified,
     such as domestic violence.” Other programs noted that they will refer parents to counseling,
     or other social services after seeing them in mediation.




                                           17

                             Administrator Perspectives on Success

    According to the Access and Visitation state administrator and mediation program managers in the four
    states, a mediation program’s success is related to its relationship with referral sources (i.e., courts or
    child support offices), its convenience to clients, and its capacity to conduct outreach and follow-up. A
    mediation session’s success, respondents noted, is related to the quality of the mediation process, as well
    as the nature of the clients served.


In discussing the factors related to the success or failure of a mediation program, it is important to keep in
mind that a broad range of mediation models exist. See Appendix A for a listing of program characteristics
and descriptions. On one end of the spectrum, the community-based model offers multiple services over
time on a voluntary basis. On the other end, the court-based model offers one session on a mandatory
basis. While the models of the mediation programs in our sample run along the spectrum, we found general
agreement across administrators in the factors leading to program and session success.

To identify the core factors that may be associated with a mediation program or session’s success, we
analyzed qualitative responses from the 10 state and program managers’ interviews in 4 states. Seven of
the respondents are from court-based mediation programs, the remaining three represent community-based
programs.

Perspectives on Program Success

•          Relationship with Referral Source
           •	     All 10 respondents agreed that a positive relationship, including close collaboration with
                  their referral source (i.e. court or child support office), is crucial to their program’s success.
                  Also important on the whole is the referral source’s “buy-in”. Specifically, the 7 court-
                  based respondents stated that the level of communication between the mediators and
                  judges greatly facilitates referrals. On the other hand, 1 state Administrator stated its
                  community-based mediation programs are not seen as a priority by the child support office,
                  their primary source of referral.
           •	     Seven interviewees stressed the logistical importance of their close location in relation to the
                  referral source. In fact, the director of a community-based program said that moving on-
                  site to the child support office has made a significant difference in the number of referrals.

•          Convenience of the Program for Clients
           •	    The 7 court-based respondents said either their program’s close proximity to the court or
                 having mediators “on-site” in the courtroom means clients can easily mediate on the same
                 day of a court appearance, saving the parents time off work and money.
           •	    Two of the court-based programs provide child care to make it easier for parents to attend
                 mediation.




                                                          18

•    Program Capacity to Conduct Outreach and Follow-up
     •	    Eight respondents mentioned the importance of conducting outreach to recruit clients. Five
           of these respondents specifically mentioned the inability to actively recruit clients, even
           though, as one state administrator said, “There are more people in need of mediation than
           the programs can serve.”
     •	    Three administrators stated that they could not conduct follow-up to monitor the progress
           of their cases, preventing them from revising individual plans, or more broadly, making
           improvements to their programs.

Perspectives on a Mediation Session’s Success

•    Quality of the Mediation Session
     •      Six respondents said the skill of the mediator impacts the session’s success
     •	     Two interviewees, 1 from each mediation model, stated that mediation held outside of a
            court room is more successful because it is less formal and, as one mediator said,
            “separates child support issues from visitation.”
     •	     One community-based program manager stressed the importance of meditating multiple
            times, saying, “the biggest challenge [for programs who mediate once] is the expectation
            that you can solve family problems in one mediation session.” On the other hand, as one
            court-based state administrator said, “mediators are pressed for time and one session is
            sometimes all they can do.”
     •	     The state administrator and program manager for one community-based program attribute
            their success to a pre-mediation parenting course.

•    Nature of the Clients
     •	    Seven state and program administrators remarked that a client’s negative attitude, animosity
           toward the other parent or the inability to focus on his or her child’s needs adversely affects
           a mediation session.
     •	    Success is more likely, as 7 respondents said, if clients are open to mediation and willing to
           participate. Unfortunately, as one state administrator said, there are some “conflict junkies”
           who are “just not going to settle.”
     •	    Seven respondents stated that clients need to have a positive perception of the mediation
           process and believe the mediator is listening to them. Parents can be mistrustful of
           mediation because of its association with child support or the courts.




                                                  19

                                         The State of Georgia

Unlike the four other states, Georgia’s two mediation programs focus primarily on increasing immediate
visitation, as opposed to access rights. Our case file review found that at least 60% of cases that successfully
completed program goals saw an increase in visits.


The two programs in Georgia have very different services and goals than the mediation programs in the four
other states reviewed. Because of these differences, we analyzed Georgia’s data separately. This allowed us to
present a more uniform analysis of mediation programs in the other states, and to judge Georgia’s programs
using a different set of criteria more appropriate to their stated program goals.

The programs in the four other states generally mediate over one session with both parents referred together
from the courts. Georgia’s programs, however, employ a “social-work model,” providing longer term case-
specific assistance, and their primary referral is the noncustodial parent. The assistance they provide consists of
such things as locating the custodial parent (CP) on behalf of the noncustodial parent (NCP), building
communication and parenting skills, facilitating and increasing visits, and assisting in the legitimation process - a
prerequisite to legal access unique to Georgia.

Access: Programs focused on visits as opposed to access and, as such, access rights
did not appreciably increase
      •	    Fifty percent of the cases reviewed successfully completed program goals. We defined this as
            negotiating/monitoring immediate visits, promoting the ability of parents to coordinate future
            visits, and/or helping clients through the legitimation process.
      •	    Only 6% gained access rights in the form of a written visitation schedule for regular visits. None
            of these parenting plans were ratified by Georgia courts.
      •	    Thirty-four percent of records reviewed made some mention of fathers beginning the legitimation
            process, the first legal step to acquiring access rights, and another 8% indicated that fathers had
            reached the middle of the process. Programs report informing all participants of the need for
            and process entailed in filing for legitimation, and they note that the great majority of these
            noncustodial parents are entirely unaware of this process.

Visitation: Program participation led to an increase in visits
       •	     In Georgia, we have information on visitation from both our case file review and our parent
              survey. Unlike other states, the case files in Georgia contained sufficient documentation about
              visits prior to entering the program and the visits that occurred during service to render an
              assessment of the program’s impact on visitation.
       •	     Overall, according to our case file review, at least 47% of the cases that entered the program
              saw an increase in visits. We were unable to make a clear determination for another 30%, for
              whom visits may have increased.
       •	     At least 60% of cases that successfully completed program goals saw an increase in visits. We
              were unable to make a clear determination for another 38% for whom visits may have increased.
       •	     According to our survey, 4 out of 7 parents who reported reaching an agreement and having
              some visits in Georgia reported an increase in regular visits.

                                                         20

Payment: Payments increased in frequency and amount subsequent to mediation
     •	    Fifty-five percent of NCPs increased the percentage of current child support paid by an average
           of $88, and 48% increased their frequency of payment. The 40% who decreased payments did
           so by an average of $56.
     •	    Seventy percent of those who successfully completed program goals subsequently increased
           their payments as a percentage of their obligations by an average of $107, and 63% increased
           the frequency of their payments. The 30% who decreased their payments did so by an average
           of $76.
     •	    More NCPs who successfully completed program goals increased their payments than those
           who did not. This association is statistically significant.
     •     The net increase in average monthly payments per case was $26.
     •	    The net increase in total annual child support paid was approximately $66,000 in FY 2001 for
           the universe of 256 IV-D cases served by the program.

Other Outcomes
      •	   Improved parent well-being and child behavior. Of the 13 parents surveyed who had
           reached a visitation arrangement, 5 reported an increase in their own-well being, and 5 reported
           an improvement in child behavior in the 6 months following mediation.
      •	   Improved parent relationship. Program administrators felt that as a result of services, parents
           were able to better communicate and discuss their child’s needs.
      •	   Increased child support involvement. One program administrator reports that NCPs will at
           times volunteer to open a child support case since this is a prerequisite to receiving help with
           visitation. In addition, parents whom the child support office has had trouble locating may be
           found through these programs.
      •	   Parents reunite. None of the cases reviewed indicated parent reunification. However, one
           program administrator reported that this does at times occur.
      •	   Good public relations for the child support office. The state administrator reported that the
           child support office is better able to shed their “bad guy” image, by making referrals to these
           programs focused on assisting NCPs with their visitation concerns.

Factors of Program Success
      •	     The location of the program. Program administrators reported that the caseworkers’ ability
             to meet clients in a neutral community setting contributed to the programs’ success.
      •	     The voluntary nature of the referrals. Because participation is voluntary, program
             administrators reported that their clients are more internally motivated to succeed.

Barriers to Program Success
      •	     Access to custodial parent. State confidentiality laws prevent the child support office from
             supplying custodial parent contact information when they make referrals. Program
             administrators cite this inability to locate the CP as one of the major reasons why cases close
             with no progress made toward access or visitation.
      •	     Legal barrier. In Georgia, there is a law requiring NCPs to be granted "legitimation" in addition
             to paternity establishment before they can pursue access rights. This creates an additional legal
             hurdle for NCPs attempting to seek access to their children. One program

                                                     21

     and the child support office are lobbying the state in an attempt to remove this legal barrier.
•	   Collaboration with the courts. There is currently little interaction with the courts. However,
     one program is currently trying to educate the judges on their services in an effort to encourage
     them to make referrals.
•	   Voluntary nature of the referral. As noted above, programs view the voluntary nature of the
     referrals as beneficial to program success. However, programs also mention that without
     mandatory participation, there is no external incentive or enforcement with respect to coming to
     an agreement or following through with the program.




                                            22

                                                    Appendix A: Program Characteristics

 Program                 Program            Physical Location                Primary Referral Source                Avg length of   Avg # of
                         Budget -                                                                                   session         sessions
                         FY2001

 IL- Cook County             $130,000       Court building                   Child Support court                    1.5 hours       1

 IL- DuPage County           $230,000       Court building                   Court                                  1-1.5 hours     1



 NV- Las Vegas               $70,000        Court building                   Child Support court                    2 hours         3

 NV- Reno                    $33,300        Near Court building              Court                                  2 hours         2-3

 CT- Hartford                $82,100        Near Court building              Child Support court                    1.5-2 hours     1


 OK- Norman                  $28,900        Community site                   Child Support office                   2 hours         3
                                                                                                                    maximum

 OK- Tulsa                   $26,300        Child Support building           Administrative Child Support           .5-1 hour       1
                                                                             hearings

 GA- Families First              *          Community site                   Child Support Office                   45 minutes      2

 GA- Middle                      *          Community site                   Child Support Office                   1 hour          2
 Georgia
* The total amount of the Federal Grant for FY 2001 for Georgia was $194,205. The break-out by program was unavailable.




                                                                           23

                                    Appendix A: Program Descriptions



Court-Based Programs

Connecticut. The Hartford Family Services Program is a voluntary, court-based mediation program. The
office is located in close proximity of the child support court and mediators are typically on-site in the court room
to take referrals. Clients then can choose if they want to mediate immediately at the court, or they can set up an
appointment to meet at a later date at the program office.

Illinois. The two mediation programs in Illinois, one in Cook County and the other in DuPage County, are
administered similarly. Both programs are located in the same building as the child support court, their primary
source of referrals. If the issue of visitation comes up in a client’s hearing, the judges or hearing officers can refer
them to the on-site mediators for same day service.

Nevada. The Las Vegas and Reno programs in Nevada both serve clients who are court-ordered to
mediation. The child support court masters may mandate a case with visitation issues to the mediation program,
conveniently located in the same building as the court. The two programs also serve clients who voluntarily want
to participate.


Community Based Programs

Oklahoma. The two programs in Oklahoma both receive referrals for their voluntary mediation programs from
a variety of sources, including the child support office, courts, and community organizations. However, the
program in Tulsa operates similarly to a court-based program, as the majority of its referrals are from
administrative child support hearings. The program is located in the same building as the child support office, so
referrals are typically seen immediately. The Norman program, on the other hand, sees clients in a community
setting.

Georgia. Georgia’s two community-based mediation programs both employ a broader, social work model.
They receive almost all of their referrals from the local child support offices, which are typically noncustodial
parents who have indicated problems related to access and visitation. For those who take the initiative to
contact the program, their access and visitation needs are assessed and a plan for increasing visitation is
established. Typically, the first step in this process is to locate and gain the cooperation of the custodial parent.
Clients are also provided with information regarding seeking legally binding access rights through the courts as
well as information on the other services offered by the program, such as parenting education and supervised
visitation.




                                                          24

                         Appendix B: Parent Satisfaction

Table B.1: Most parents recommend the mediation program, even those who did not reach agreements.

                           Strongly or         Neither          Strongly or        Don’t
                            Somewhat        recommend or         Somewhat          know
                           recommend        advise against     advise against
All CP Respondents
                               81%                12%               5%              2%
n=69
   CPs who reached
                                                                                    3%
   mediated agreement          81%                11%               5%
   n=60
   CPs who did not
   reach an agreement          80%                0%                20%             0%
   n=9
All NCP Respondents
                               71%                14%               12%             2%
n=56
   NCPs who reached
   mediated agreement          74%                14%               11%             1%
   n=45
   NCPs who did not
   reach an agreement          59%                13%               19%             9%
   n=11




                                           25

                                        Appendix C: Methodology

To describe the effectiveness of the Access and Visitation Grants that target IV-D families, we reviewed Access
and Visitation program files, related court files, and child support case files for 254 cases in 5 states. We also
conducted a phone survey of the parents who participated in the program and interviewed Access and Visitation
program administrators.

Sampling plan

We employed a two-stage stratified random sampling methodology. The strata were states. From each strata,
we randomly selected a sample of participants who completed mediation services in calendar year 2001.

Selecting States. We purposively selected 5 states to represent those states that use their Access and Visitation
grant money to offer access-related services, specifically mediation, to the IV-D population. These five states
were selected out of 17 states who reported to OCSE that they elected to use their grant money to offer
mediation to the IV-D population. To make our selection, we collected information from each of the mediation
programs in the 17 states. We requested information on the programs’ target populations, number of
participants, and types of services offered. States were selected to represent geographic diversity as well as
diversity on a few key characteristics of the programs that they funded. The conditions considered were
whether the programs were court based or community based, the extent to which they served the IV-D
population and whether or not confidentiality provisions would prohibit our access to necessary documentation.
We selected Nevada, Connecticut, Illinois, Oklahoma, and Georgia (containing a total of nine mediation
programs).

Selecting Participants. To select our sample participants, we requested that nine programs in the 5 selected
states identify all IV-D cases completing mediation in calendar year 2001. From this list, we randomly selected
cases. Samples were selected with the intention of achieving 95% confidence intervals with 7% precision.
Alternates were selected in anticipation that our case file review would reveal cases that were inappropriately
included in our sampling frame.

Data Collection

In our case file review, we were able to collect complete data for 254 cases. Cases are broken out by state in
Table C.1. The table also indicates the original sample sizes desired for each strata. The actual sample sizes are
smaller than the desired sample size in 3 states because, despite selecting alternates, we had to discard more
cases than anticipated. This means that some precision was lost, which is reflected in the confidence intervals in
Appendix D. Cases were primarily discarded because parents did not actually participate in mediation.




                                                       26

        Table C.1: Sample for State Case File Review
          Strata/State            Number of        Number of          Number of Cases
                                    Cases in        Cases in           in Population
                                Desired Sample   Actual Sample
             Nevada                    59               51                   150

           Connecticut                 37               33                    59

            Oklahoma                   31               31                    45

              Illinois                 75               75                   341

             Georgia                   70               64                   256

           Four State                 202*            190*                   595*
           TOTAL*
             TOTAL                    272              254                   851
        * All states except Georgia




Access Rights: Court and Mediation Program Case File Review. To assess whether NCPs increased their
access rights, we reviewed access-related documents in court, mediation program, and child support case files.
These documents included mediated agreements, divorce decrees, stand alone visitation orders, restraining
orders, parentage establishment orders, and child support orders. In addition to mediated agreements, some
mediation programs also allowed us to collect information from mediator case notes and intake sheets, which
included demographic and contact information for parents. For each case, we noted whether mediation resulted
in an agreement, recorded any noncustodial parent access rights at the time mediation began, and noncustodial
parent access rights acquired through the terms of mediation agreements.

To analyze our collected data, we first compared the NCP’s access rights prior to the program (as noted in
court documents) to his or her access rights after the program (as noted in mediated access agreements) to code
whether access rights increased, stayed the same, or decreased.

Visitation: Phone Survey of CP and NCP Program Participants. Our contractor contacted program
participants by phone in order to glean information from the participants about changes in visitation and other
outcomes resulting from the program. Participants were asked about the extent of visits before and after
completing the program, and whether they experienced other outcomes, such as improved child behavior,
household formation or marriage after mediation. In addition, participants were asked to comment on reasons
for visit changes and provide feedback on the program they attended.

Based on conversations with researchers working with the IV-D population, we expected a low response rate
on our survey, due primarily to inaccurate, outdated, or missing contact information. One study in particular
experienced a 25% response rate. In an effort to increase our response rate, we collected participant contact
information from multiple sources - child support, court, and mediation program files.


                                                       27

Our contractor made every effort to contact participants using the information we provided. They called at
different times of the day, left messages and, where phone numbers were outdated, searched the internet and
telephone directories for new numbers. The contractor estimated that staff spent a third of their time tracking
down current numbers for parents after exhausting the numbers that we provided.

The response rate for our phone survey was higher than expected. We received responses for 125 parents (out
of 380) for a parent response rate of 33%, and surveyed at least one parent for 100 of our 190 cases for a case
response rate of 53%. In 25 cases both parents responded. See the table below for strata sample sizes and
weights.

Table C.2: Sample for Phone Survey
 Strata/State                 Number of Parents in   Number of Cases     Number of Cases in   Number of Cases in
                              Desired Sample         in Desired Sample   Actual Sample        Population

 Nevada                                 102                  51                    32                   150

 Connecticut                            66                   33                    13                    59

 Oklahoma                               62                   31                    21                    45

 Illinois                               150                  75                    34                   341

 Georgia                                128                  64                    18                   256

 Four State TOTAL*                      380                 190                   100                   595

 TOTAL                                  508                 254                   118                   851
* All states except Georgia

Child Support Payment: Child Support Case File Review. For our payment review, we collected information
from child support records on order, payment, and earnings history for the period 18 months before mediation
to 18 months after mediation for each case. To assess whether child support increased, we compared each
noncustodial parent’s child support payment history before they entered the mediation program to their payment
history after they completed the program.

State and Program Administrator Perspectives. We conducted interviews with all state and program-level
administrators to examine what factors may be associated with programmatic success or failure. We conducted
a content analysis on administrator responses, identifying common themes.

Analysis

Due to significant differences between Georgia’s programs and the other states’ programs, all of the data
collected from Georgia was pulled out and analyzed separately. In other words, the information from the 254
cases was broken into two subsets used in analysis, 190 cases for four states and 64 cases for Georgia.
Analyzing the data separately allowed us to present a more uniform analysis of mediation programs in the other
states, and to judge Georgia’s program using criteria more appropriate to their stated program goals. Georgia’s
programs have very different services and goals than the mediation programs in the four other states reviewed.
The programs in the four other states generally mediate over one session with both parents referred from the

                                                              28

courts at the same time. Georgia’s programs, however, employ a “social-work model,” providing longer term
case-specific assistance, and their primary referral is the NCP.

Despite sampling on case, we analyzed most of the NCP and CP responses to the phone survey separately.
Research indicates that CPs tend to under-report when asked about child support payments and NCP visits,
and NCPs tend to over-report these same items. Also, we had 25 cases in which both parents responded.
Separate analysis allowed us to report out the data without making potentially arbitrary adjustments to account
for any over- or under-reporting or conflicting information within a case. For a few core variables, we
performed analysis by case. For the 25 cases with responses from each parent, we categorized conflicting
information as indeterminate. Fortunately, most of the parents in these cases agreed on the items being analyzed.
We found that 77% of the pairs agreed on whether or not that they reached a mediated agreement. Of those
pairs reporting having reached an agreement, 65% agreed on whether or not the NCP visits increased,
decreased, or stayed the same.

We had anticipated including a comparison of court and community programs’ outcomes. Three of our states
contained court-based mediation programs (Nevada, Illinois, Connecticut), and two states contained
community-based programs (Georgia, Oklahoma). Ultimately separating states into court/community categories
did not prove useful. One of two community-based states, Georgia, was removed from our aggregate analysis.
Further, the largest program in Oklahoma, the other state with community-based programs, turned out to have a
very similar structure to our other court-based programs, in that parents are referred to mediation largely through
child support administrative hearings.

For the 4 states, we calculated weighted frequencies and confidence intervals using the statistical software
package SUDAAN. We tested relationships using chi-square tests and logistic regression where applicable.
For Georgia, the data was analyzed using the statistical software SAS and Microsoft Access since weighting
was not necessary.

Since all aggregate data reported are weighted according to state stratification, they can be projected to
program participants in the four states. Our sampling methodology does not allow us to project to the 17 states.
Our analysis of Georgia can only be projected to represent that state. Confidence intervals for specific point
estimates are provided in Appendix D.




                                                        29

                                             Appendix D: Confidence Intervals

                                                                           Point     Lower    Upper
                               Statistic                                  Estimate    Limit   Limit
ACCESS
Percent of cases that reached an agreement                                 76.1%      71.3%   80.3%

Percent of cases with an agreement that increased access rights            86.0%      81.9%   90.2%

Percent of all cases that gained increased access rights through           65.4%      60.2%   70.7%
mediation

Percent of IL cases that reached an agreement                              72.0%      64.4%   79.6%

Percent of CT cases that reached an agreement                              84.9%      77.9%   91.8%

Percent of NCPs with no prior access who reached an agreement              77.0%      71.3%   82.8%

Percent of NCP with prior access who reached an agreement                  73.9%      65.3%   82.5%

Percent of NCPs with prior access who reached an agreement                 53.8%      42.9%   64.6%
increasing their access rights

Percent of all NCPs with prior access who increased their access           39.7%      30.4%   49.0%
rights

VISITS
Percentage of cases with a parent reporting an increase in visits          41.5%      31.7%   51.3%

Percentage of cases with a parent reporting visits stayed the               33%       21.7%   44.3%
same

Percentage of cases with a parent reporting a decrease in visits            11%       3.7%    18.3%

Percent of CPs who reached an agreement in mediation                       88.2%      68.8%   100.0%

Percent of NCPs who reached an agreement in mediation                      83.3%      75.8%   90.8%

Percent of CPs with an agreement whose visits increased                    38.8%      27.6%   50.0%

Percent of NCPs with an agreement whose visits increased                   53.1%      39.5%   66.7%

Percent of CPs without an agreement whose visits increased                 10.2%       0%     24.8%

Percent of NCPs without an agreement whose visits increased                13.0%       0%     26.8%

Percent of CPs who say there were once/weekly or more visits               29.5%      17.6%   41.4%
before mediation

Percent of NCPs who say there were once/weekly or more visits              47.9%      33.3%   62.6%
before mediation

Percent of CPs who claim there were no visits before mediation             41.6%      29%      54%

Percent of NCPs who claim there were no visits before mediation            27.6%      14.8%   40.3%


                                                                    30

                                                                           Point     Lower      Upper
                              Statistic                                   Estimate    Limit     Limit
Percent of CPs who say there were once/weekly or more visits               47.1%      34.3%      59.9%
after mediation

Percent of NCPs who say there were once/weekly or more visits              61.2%      46.9%      75.4%
after mediation

Percent of CPs who claim there were no visits after mediation              23.2%      12.4%      34%

Percent of NCPs who claim there were no visits after mediation             15.7%      4.7%       26.6%

Percent of CPs who said visits were regularly scheduled before             20.2%      9.5%       30.9%
agreement

Percent of NCPs who said visits were regularly scheduled before            26.3%      12.7%      39.9%
agreement

Percent of CPs who said visits were regularly scheduled after              43.7%      30.4%      57%
agreement

Percent of NCPs who said visits were regularly scheduled after             56.7%      41.4%      71.9%
agreement

Percent of CPs who said visits were informal before agreement              16.7%      6.9%       26.4%

Percent of NCPs who said visits were informal before agreement             17.4%      5.3%       29.5%

Percent of CPs who said visits were informal after agreement                8.2%       .5%       15.9%

Percent of NCPs who said visits were informal after mediation               4.4%       0%        9.1%

Percent of CPs who said visits were cancelled less often after             23.8%      11%        36.6%
mediation

Percent of NCPs who said visits were cancelled less often after            50.6%      33.4%      67.7%
mediation

Percent of CPs with increased visits who said visits were                  42.6%      18.6%      66.7%
cancelled less often after mediation

Percent of NCPs with increased visits who said visits were                 68.9%      46.8%      91%
cancelled less often after mediation

PAYMENT
Percent of NCPs who increased percent paid of amount owed                  60.7%      52%        69.4%

Percent of NCPs who decreased percent paid of amount owed                  27.5%      19.4%      35.5%

Percent of NCPs who did not change percent paid of amount                  11.9%      6.0%       17.7%
owed

Estimate of total annual net increase in child support collection         $231,121   $151,777   $310,465

Average monthly amount increase per case                                   $55.66     $36.55     $74.77




                                                                    31

                                                                           Point     Lower    Upper
                              Statistic                                   Estimate    Limit   Limit
Average monthly amount increase for NCPs who increased                     $116.02   $95.28   $136.75
payment

Average monthly amount decrease for NCPs who decreased                     $53.74    $29.20   $78.28
payment

Percent of NCPs who increased number of payments                           53.5%      46.2%   60.8%

Percent of NCPs who decreased number of payments                           22.8%      16.3%   29.3%

Percent of NCPs where the number of payments remained the                  23.7%      17.4%   30.0%
same

Percent of CPs who agreed with opinion statement regarding the             41.7%      31.5%   51.9%
connection between child support payment and visitation

Percent of CPs who disagreed with opinion statement regarding              45.3%      35.0%   55.6%
the connection between child support payment and visitation

Percent of NCPs who agreed with opinion statement regarding                52.5%      40.9%   64.0%
the connection between visitation and child support payment

Percent of NCPs who disagreed with opinion statement regarding             39.2%      27.8%   50.6%
the connection between visitation and child support payment

OTHER OUTCOMES
Percent of CPs reporting well-being increase after mediation               38.0%      27.0%   49.0%

Percent of NCPs reporting well-being increase after mediation              54.8%      41.3%   68.2%

Percent of CPs who reported an increase in visits and reported an          34.3%      18.7%   50.0%
increase in well-being after mediation

Percent of NCPs who reported an increase in visits and reported            84.4%      73.5%   95.3%
an increase in well-being after mediation

Percent of CPs reporting an improvement in child behavior after            33.3%      23.2%   43.5%
mediation

Percent of NCPs reporting an improvement in child behavior after           40.7%      27.4%   53.9%
mediation

Percent of CPs who reported an increase in visits and reported an          32.1%      16.7%   47.4%
improvement in child behavior after mediation

Percent of NCPs who reported an increase in visits and reported            63.3%      45.9%   80.7%
an improvement in child behavior after mediation

GEORGIA
Percent of all cases that successfully completed program goals              60%       45.5%   74.5%
and saw an increase in visits




                                                                    32

                                                                           Point       Lower     Upper
                                Statistic                                 Estimate      Limit    Limit
Percent of cases that completed program goals                               50%         39.6%     60.4%

Percent of cases that had a formal parenting plan                           6.3%         1%       10.9%

Percent of cases in which there was some indication that they               34.4%       24.1%     43.9%
had begun the legitimation process

Percent of cases in which there was some indication that they               7.8%        2.3%      13.7%
had gotten to the middle of the legitimation process

Percent of cases with no prior access rights                                81.2%       73%       89.4%

Percent of all cases that saw a clear increase in visits                    47%         36.5%     57.4%

Percent of all cases that saw an indeterminate change in visits             30%         20.4%     39.5%

Percent of all cases that successfully completed program goals              37.5%       23.2%     51.8%
and saw an indeterminate change in visits.

Percent of NCPs who increased percent paid of owed                          54.7%       44.9%    64.5 %

Estimate of total annual net increase in child support collection         $65,967.36   $12,149   $119,786

Average monthly amount increase per case                                    $25.93      $4.78     $47.08

Average amount of the increase of percent paid of due after                 $87.86     $55.42    $120.30
mediation of those who increased payment

Percent of NCPs who increased their frequency of payments after             48%         38.0%     58.0%
mediation

Percent of NCPs who decreased their percent paid of due after               40%         30.2%     49.8%
mediation

Average amount of the decrease of percent paid of due after                 $55.89     $40.07     $71.71
mediation of those who decreased payments

Percent of NCPs who completed program goals who increased                   70%         57.4%     82.6%
percent paid of due after mediation

Average amount of the increase of percent paid of owed for the             $106.80     $68.46    $145.15
NCPs who increased percent paid after mediation

Percent of NCPs who completed program goals who increased                   63%         49.7%     76.3%
frequency of payments after mediation

Percent of NCPs who completed program goals who decreased                   30%         17.4%     42.6%
percent paid of amount owed after mediation

Average amount of the decrease of percent paid of amount owed               $76.40     $44.40    $108.40
for the NCPs who decreased percent paid after mediation




                                                                    33

                     ACKNOWLEDGMENTS


This report was prepared under the direction of William C. Moran, Regional Inspector General for
Evaluation and Inspections in Chicago and Natalie Coen, Deputy Regional Inspector General. Other
principal Office of Evaluation and Inspections staff who contributed include:

Ann Maxwell, Project Leader
          Joan Richardson, Program Specialist
Susan Otter, Lead Analyst
                   Linda Hall, Program Specialist
Madeline Carpinelli, Program Analyst

Mara Siler-Price, Program Analyst

Rebecca Ogrodnick, Program Analyst

Christina Singer, Intern

Kim Siegal, Intern

Meaghan Fotherfill, Intern

Sarah Pentoney, Intern

